IN THE SUPREME COURT OF THE UNITED STATES
October Term2020
MERWIN SMITH,
Petitioner

)
)
)

)
vs.

UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)

On Petition for Writ of
Certiorari to the United
States Court of Appeals
for the Eighth Circuit
Supreme Court Case No. 20-8143

PROOF OF SERVICE
Comes now, Melissa Goymerac, counsel of record for the Petitioner Merwin Smith, who
here gives proof and certifies that on September 23 , 2021 , I have served copies of the Petitioner's

Reply to the Government's Brief in Opposition plus this Proof of Service, on each party to the
above proceeding or that party's counsel, by depositing an envelope containing copies thereof

with

a

third-party commercial carrier for delivery within three days to:

Acting Solicitor General Elizabeth Prelogar
U.S. Department of Justice, Room 5614
950 Pennsylvania Avenue, NW
Washington, DC 2053 0-0001
(202) sr4-2203

and by delivery a copy of those documents by hand to:

Sayler A. Fleming, Acting United States Attorney
For the Eastern District of Missouri
Eagleton Federal Courthouse
111 South Tenth Street, 20tl'Floor
Saint Louis, MO 63102

I declare under penalty of perjury that the foregoing is true and correct.
Respectfu

lly submitted,

Assistant Federal Public Defender
1010 Market, Suit€ 200
St. Louis, MO. 63101
(314) 241-t2ss
Fax: (314) 421-3177

ATTORNEY FOR PETITIONER

